Washington, D.C. 20530

October 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Alejandro Rosales-Gonzalez v. United States of America,
S.Ct. No. 21-5305
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 2, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on October 13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5305
ROSALES-GONZALEZ, ALEJANDRO
USA

BETH A. COLGAN
VICE DEAN OF FACULTY & INTELLECTUAL
LIFE
UCLA SCHOOL OF LAW
385 CHARLES E. YOUNG DRIVE EAST
LOS ANGELES, CA 90095
COLGAN@LAW.UCLA.EDU
TIMOTHY W. GRINSELL
HOLWELL SHUSTER & GOLDBERG LLP
425 LEXINGTON AVENUE
NEW YORK, NY 10017
646-837-8459
TGRINSELL@HSGLLP.COM
646-837-0312(Fax)
CONRAD BENJAMIN KAHN
FEDERAL DEFENDER ATTORNEY
201 S. ORANGE AVE.
STE 300
ORLANDO, FL 32801
407-648-6338
CONRAD_KAHN@FD.ORG

